<html>
<title> - NEXTGEN: LONG-TERM PLANNING AND INTERAGENCY COOPERATION</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
        NEXTGEN: LONG-TERM PLANNING AND INTERAGENCY COOPERATION

=======================================================================

                               (111-104)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                                AVIATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

                             April 21, 2010

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                  U.S. GOVERNMENT PRINTING OFFICE
56-159                    WASHINGTON : 2010
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY, Pennsylvania  ANH ``JOSEPH'' CAO, Louisiana
JOHN J. HALL, New York               AARON SCHOCK, Illinois
STEVE KAGEN, Wisconsin               PETE OLSON, Texas
STEVE COHEN, Tennessee               VACANCY
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
JOHN GARAMENDI, California
VACANCY

                                  (ii)

  
?

                        Subcommittee on Aviation

                 JERRY F. COSTELLO, Illinois, Chairman

RUSS CARNAHAN, Missouri              THOMAS E. PETRI, Wisconsin
MICHAEL E. McMAHON, New York         HOWARD COBLE, North Carolina
PETER A. DeFAZIO, Oregon             JOHN J. DUNCAN, Jr., Tennessee
ELEANOR HOLMES NORTON, District of   VERNON J. EHLERS, Michigan
Columbia                             FRANK A. LoBIONDO, New Jersey
BOB FILNER, California               JERRY MORAN, Kansas
EDDIE BERNICE JOHNSON, Texas         SAM GRAVES, Missouri
LEONARD L. BOSWELL, Iowa             JOHN BOOZMAN, Arkansas
TIM HOLDEN, Pennsylvania             SHELLEY MOORE CAPITO, West 
MICHAEL E. CAPUANO, Massachusetts    Virginia
DANIEL LIPINSKI, Illinois            JIM GERLACH, Pennsylvania
MAZIE K. HIRONO, Hawaii              CHARLES W. DENT, Pennsylvania
HARRY E. MITCHELL, Arizona           CONNIE MACK, Florida
JOHN J. HALL, New York               LYNN A. WESTMORELAND, Georgia
STEVE COHEN, Tennessee               JEAN SCHMIDT, Ohio
LAURA A. RICHARDSON, California      MARY FALLIN, Oklahoma
JOHN A. BOCCIERI, Ohio, Vice Chair   VERN BUCHANAN, Florida
NICK J. RAHALL, II, West Virginia    BRETT GUTHRIE, Kentucky
CORRINE BROWN, Florida
ELIJAH E. CUMMINGS, Maryland
JASON ALTMIRE, Pennsylvania
SOLOMON P. ORTIZ, Texas
MARK H. SCHAUER, Michigan
JOHN GARAMENDI, California
DINA TIUS, Nevada
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Bolsinger, Lorraine A., President and Cheif Executive Officer, 
  General Electric Aviation Systems LLC..........................     4
Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  United States Government Accountability Office.................     4
Pennington, Steven, Executive Director, Department of Defense 
  Policy Board on Federal Aviation...............................     4
Scovel, III, Hon. Calvin L., Inspector General, United States 
  Department of Transportation...................................     4
Shin, Jaiwon, Associate Administrator, Aeronautics Research 
  Mission Directorate, National Aeronautics and Space 
  Administration.................................................     4
Toner, Karlin, Director, Joint Planning and Development Office...     4

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    22
Costello, Hon. Jerry F., of Illinois.............................    23
Johnson, Hon. Eddie Bernice, of Texas............................    30
Mitchell, Hon. Harry, of Arizona.................................    33
Oberstar, Hon. James L., of Minnesota............................    34
Richardson, Hon. Laura, of California............................    38

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Bolsinger, Lorraine A............................................    42
Dillingham, Geralde..............................................    52
Pennington, Steven...............................................    77
Scovel, III, Hon. Calvin L.......................................    81
Shin, Jaiwon.....................................................    96
Toner, Karlin....................................................   102

                       SUBMISSIONS FOR THE RECORD

Bolsinger, Lorraine A., President and Cheif Executive Officer, 
  General Electric Aviation Systems LLC, response to request for 
  information from Hon. Richardson, a Representative in Congress 
  from the State of California...................................    49
Dillingham, Gerald, Director, Physical Infrastructure Issues, 
  United States Government Accountability Office, response to 
  request for information from Hon. Richardson, a Representative 
  in Congress from the State of California.......................    72
Scovel, III, Hon. Calvin L., Inspector General, United States 
  Department of Transportation, response to request for 
  information from Hon. Richardson, a Representative in Congress 
  from the State of California...................................    92

[GRAPHIC] [TIFF OMITTED] T6159.001

[GRAPHIC] [TIFF OMITTED] T6159.002

[GRAPHIC] [TIFF OMITTED] T6159.003

[GRAPHIC] [TIFF OMITTED] T6159.004

[GRAPHIC] [TIFF OMITTED] T6159.005

[GRAPHIC] [TIFF OMITTED] T6159.006



         NEXTGEN: LON-TERM PLANNING AND INTERAGENCY COOPERATION

                              ----------                              


                       Wednesday, April 21, 2010

                  House of Representatives,
                          Subcommittee on Aviation,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:04 p.m., in 
Room 2167, Rayburn House Office Building, Hon. Jerry F. 
Costello [chairman of the Subcommittee] presiding.
    Mr. Costello. The Subcommittee will come to order. The 
Chair will ask all staff, Members and everyone to turn 
electronic devices off or on vibrate.
    The Subcommittee is meeting today to receive testimony 
regarding NextGen: Long-term Planning and Interagency 
Cooperation. I will give a brief opening statement and I will 
submit a longer statement for the record. Then I will recognize 
the Ranking Member, Mr. Petri, for his statement or any remarks 
that he may have, and then we will go to our panel of 
witnesses.
    Let me welcome everyone to the aviation Subcommittee 
hearing today on NextGen: Long-term Planning and Interagency 
Cooperation. Today's hearing will explore how the Federal 
agencies responsible for implementing NextGen are reconciling 
near, mid-term and long-term goals. This hearing will also 
examine how the Joint Planning and Development Office will work 
in collaboration with partner agencies.
    This is the fourth hearing that Ranking Member Petri and I 
have held in the 111th Congress on NextGen. I will continue to 
hold regular hearings on NextGen-related issues to provide 
congressional oversight and a forum for open dialogue to 
explore the challenges that lie ahead.
    The FAA has made progress in planning and developing 
NextGen, and has tested key technologies such as ADS-B that 
allows an aircraft to transmit its own position and receive 
information from similarly equipped aircraft. I want to 
continue to work with the FAA and industry stakeholders to 
ensure these near-term programs stay on schedule for long-term 
advancements, in order for them to be made.
    Successful implementation of NextGen depends on strong 
leadership and a clear organizational structure. The JPDO is 
responsible for facilitating coordination among partner 
agencies on how to apply each agency's respective expertise, 
research and technology to the task of building the NextGen 
system. To increase the authority and visibility of the JPDO, 
the House FAA reauthorization bill elevates the director of the 
JPDO within the FAA reporting directly to the administrator. 
Clarity on the JPDO director's leadership and role is 
essential.
    In our NextGen near-term hearing in March 2009, the 
Government Accountability Office testified about uncertainty 
over the JPDO's authority and role and a lack of leadership to 
clarify and define their role. Almost a year later, the FAA 
announced several changes to the JPDO structure and named Dr. 
Toner the director of the organization.
    As the FAA implements near and mid-term NextGen 
capabilities, near to mid-term plans must be connected to the 
long term vision. In addition, I firmly believe there needs to 
be greater White House involvement in facilitating 
collaboration among partner agencies. I am hopeful that the 
recent changes to the JPDO signal this administration's 
support.
    With that, I welcome all of our witnesses here today and I 
look forward to hearing their testimony.
    Before I recognize Mr. Petri for his opening statement, I 
ask unanimous consent to allow 2 weeks for all Members to 
revise and extend their remarks and to permit the submission of 
additional statements and materials by Members and witnesses. 
Without objection, so ordered.
    At this time the Chair recognizes the Ranking Member of the 
Subcommittee, Mr. Petri.
    Mr. Petri. Thank you very much, Mr. Chairman, and thank you 
for calling this hearing. The transition to NextGen is a 
complex undertaking worthy of rigorous oversight. Sometimes I 
think when the government is involved, it is more complex and 
it takes longer than it might otherwise be. And one of the 
reasons we are having this hearing is to see if we can't make 
it more efficient and actually get NextGen deployed in a 
reasonable period of time.
    In October of 2003, we approved the Vision 100 FAA 
reauthorization that, among other things, created, as you 
pointed out, the Joint Planning and Development Office to 
manage the interagency coordination implementation of the 
effort to move us to NextGen. The goal was to leverage existing 
resources of JPDO partner agencies to facilitate the NextGen 
transition as well as to ensure that the future modernized 
national airspace system capabilities will meet the needs of 
JPDO partner agencies. Vision 100 requires the JPDO to develop 
annual integrated work plans to provide step by step work plans 
for the JDPO partner agencies.
    I am interested to learn how and to what extent the partner 
agencies are dedicating resources to the development of 
NextGen. There are plenty of examples of NASA and Department of 
Defense research and developed technologies that have found 
their way into daily civilian life. So I am interested to hear 
how human factors research and technology transfer efforts 
between JPDO partner agencies are facilitating the advancement 
of NextGen.
    Vision 100 also established the Senior Policy Committee 
comprised of cabinet secretaries and agency heads of the JDPO 
partner agencies along with the head of the White House Office 
of Science and Technology. The purpose of the Senior Policy 
Committee is to provide guidance on key NextGen policy 
questions and to maintain senior level accountability for 
advancing the NextGen effort.
    The bipartisan NextGen provisions of the pending House FAA 
reauthorization bill elevates the position of the JPDO director 
within the FAA. In November of 2008, President Bush signed an 
executive order that restores the focus of senior 
administrative level officials on the NextGen planning and 
implementation process, and the current administration has 
seemingly endorsed this approach.
    I look forward to hearing the IG and GAO's assessments of 
the current levels of engagement between the JPDO and the 
Senior Policy Committee and the FAA executives. I am also 
interested in hearing from all of the witnesses on just who 
they believe is in charge of NextGen.
    A challenging factor within NextGen is that the 
transformation must happen on a system that can never be turned 
off for repairs. In addition, the exigencies of the day-to-day 
operation of the national air space system can overpower any 
long-term planning focus. I would like our witnesses to address 
how the JPDO is handling the challenges associated with 
balancing the needs of the current system integration of long-
term improvements and planning for future needs. It must also 
address the need to ensure international harmonization of 
satellite-based surveillance and air traffic control 
modernization. Not only must we ensure air traffic control 
sources are interchangeable, but timelines matter, too.
    With regard to satellite-based surveillance, it is not just 
a matter of keeping up with the Joneses. We must be sure to 
keep with Europe, Australia, and even Mongolia's accelerated 
ADS-B timetables. The value of being first means that you set 
the standard to which avionics are built. That could mean good-
paying jobs here in the United States, a benefit not lost on 
Americans given the current unemployment levels.
    I am interested in hearing about the JPDO's efforts to keep 
the U.S. the world's leader for air traffic modernization. 
Finally, it is argued that NextGen will result in significant 
cost savings and environmental benefits, more direct precise 
routing, and improved air traffic management which will result 
in significant reductions in fuel burn and emissions.
    According to an October 2009 GAO report, the procedures 
that will result in many environmental benefits are often mired 
in review processes mandated by Congress under NEPA that can 
take years and can cost millions of dollars. We should 
seriously explore how to best get the environmental benefits of 
new navigation procedures in the most timely and efficient way. 
I believe that the slow pace of the environmental review of new 
air traffic control procedures threatens the entirety of the 
NextGen enterprise. It is impossible to achieve the goals of 
NextGen if the FAA can only clear a limited number of high 
quality procedures through the environmental review process 
each year.
    Both the environmental benefits promised and the overall 
success of the NextGen enterprise seem to depend on our ability 
to overcome this challenge. I think we can preserve the goals 
of NEPA while improving the FAA's ability to implement more 
environmentally friendly air traffic procedures, and I welcome 
any specific proposals on this issue from our witnesses. And I 
understand we do have several of these from the General 
Electric witness.
    So I thank all of you for participating, and thank you for 
your testimony.
    Mr. Costello. The Chair thanks the Ranking Member and now I 
will recognize our witnesses.
    First is Dr. Karlin Toner, director of the Joint Planning 
and Development Office with the FAA and senior staff adviser to 
the Secretary of Transportation on NextGen; Dr. Gerald 
Dillingham is the director, physical infrastructure issues for 
the U.S. Government Accountability Office; the Honorable Calvin 
Scovel, III, Inspector General for the U.S. Department of 
Transportation; Dr. Jaiwon Shin, associate administrator, 
Aeronautics Research Mission Directorate for NASA; Steven 
Pennington, Headquarters Air Force, Director of Bases, Ranges 
and Air Space, and the executive director for the Department of 
Defense Policy Board on Federal Aviation; Lorraine Bolsinger, 
President and CEO of GE aviation systems.
    I understand, Ms. Bolsinger, you have to leave at 4 p.m. We 
appreciate you being here to testify before the Committee, and 
hopefully we will be able to get your testimony and adhere to 
the time you have to leave.

   STATEMENTS OF KARLIN TONER, DIRECTOR, JOINT PLANNING AND 
   DEVELOPMENT OFFICE; GERALD DILLINGHAM, DIRECTOR, PHYSICAL 
INFRASTRUCTURE ISSUES, UNITED STATES GOVERNMENT ACCOUNTABILITY 
 OFFICE; HON. CALVIN L. SCOVEL, III, INSPECTOR GENERAL, UNITED 
  STATES DEPARTMENT OF TRANSPORTATION; JAIWON SHIN, ASSOCIATE 
   ADMINISTRATOR, AERONAUTICS RESEARCH MISSION DIRECTORATE, 
     NATIONAL AERONAUTICS AND SPACE ADMINISTRATION; STEVEN 
 PENNINGTON, EXECUTIVE DIRECTOR, DEPARTMENT OF DEFENSE POLICY 
BOARD ON FEDERAL AVIATION; AND LORRAINE A. BOLSINGER, PRESIDENT 
         AND CEO, GENERAL ELECTRIC AVIATION SYSTEMS LLC

    Mr. Costello. Before I call on our first witness to 
testify, you will see me leave about 2:40 and another Member, 
Mr. Boswell, will take the Chair for a short period of time. I 
am going down the hall to the Financial Services Committee 
where I will be testifying on a bill that I have an interest 
in, and after my testimony is completed, I will be back here in 
the Chair.
    With that, the Chair now recognizes Dr. Toner. All of your 
statements will be entered into the record in their entirety 
and we ask that you adhere to the 5-minute rule to summarize 
your statements so we have time for discussion.
    Dr. Toner.
    Ms. Toner. Good afternoon, Chairman Costello, Ranking 
Member Petri and Members of the Subcommittee. First, I want to 
thank you for inviting me to talk with you today about what the 
Joint Planning Development Office work is in long-term planning 
and interagency cooperation for NextGen.
    Today I am appearing before you as the new Director of the 
JPDO, a position I have had the privilege of serving for just 
60 days now and I realize that this is not an easy job. I first 
worked with the JPDO 6 years ago at that time as a NASA 
researcher. Back then I served on an integrated product team 
and helped brainstorm the ideas and the concepts that are 
NextGen.
    Since then, Administrator Babbitt has realigned the Joint 
Planning Development Office so that the director reports 
directly to the FAA Deputy Administrator. And I note from 
Ranking Member Petri's opening comments, the FAA Deputy 
Administrator is the point person on NextGen.
    I also continue to meet regularly with Secretary LaHood's 
office to advise him on NextGen progress and plans, a practice 
that started when I served as his NextGen Senior Adviser.
    My job as the Director is to refine our longer term goals 
and to account for the changing realities of our aviation 
world. NextGen capabilities are beginning to be implemented 
today. And as we gain experience, our past work will help us 
chart a realistic course forward.
    Today's world is different than the one in which NextGen 
was originally envisioned. The economy, the airlines, the 
environment, and our security needs have changed dramatically. 
I think we have observed the economic impacts in the past week 
with volcanic eruptions. To account for these changes in our 
world, we must take a more flexible approach to longer-term 
NextGen planning. We must blend evolution and transformation to 
meet the national needs for air transportation.
    Of equal importance, my responsibilities also include 
expanding the opportunities for collaboration among the partner 
agencies. The JPDO provides a forum for interagency engagement 
and monitors the follow-up of the partners. JPDO will develop 
strategic issues for the Senior Policy Committee, a cabinet-
level decision making body. We will continue to identify long-
term research needs, making sure that they are integrated into 
current implementation. And we will continue to consult with 
industry and assess how they can best contribute to policy and 
R&D planning today.
    I am looking at all of the possibilities for successful 
interagency cooperation. We are very fortunate that with the 
increased visibility and responsibility of the JPDO and the 
Administration's focus on NextGen, we now have even more tools 
to choose from to ensure productive partnerships across the 
government.
    Of course the more productive these cooperative efforts 
are, the better the service that the FAA can provide to the 
traveling public.
    Chairman Costello, Ranking Member Petri, Members of the 
Subcommittee, thank you again for inviting me to share my views 
with you today. This concludes my prepared remarks and I will 
be happy to answer questions.
    Mr. Costello. The Chair thanks you, Dr. Toner, and now 
recognizes Dr. Dillingham.
    Mr. Dillingham. Thank you, Mr. Chairman, Ranking Member 
Petri.
    My written testimony focus on two issues. First, the 
challenges FAA faces in coordinating planning and 
implementation of NextGen internally across the various lines 
of business and externally with the partner agencies; and 
second, FAA's efforts to integrate near term and mid term 
implementation plans with the long term NextGen vision.
    Regarding internal coordination challenges, we have 
previously reported to this Committee that FAA would find it 
challenging to shift from a focus on systems acquisition and 
individual programs to a focus on integration and coordination. 
Two recent organizational changes may help to address this 
ongoing challenge. First, FAA has determined that the deputy 
administrator will be the executive in charge and responsible 
across all FAA lines of business for the implementation of 
NextGen. This development adds to the urgency of filling this 
critical position.
    Additionally, FAA has begun coordinating some office 
functions and moving towards a portfolio approach for 
implementation. These are positive, but relatively recent 
developments, and it remains to be seen how well they will 
address concerns expressed by industry and the Congress about 
exactly what is NextGen and who is in charge of NextGen and 
whether that official has sufficient authority and 
accountability to ensure effective implementation.
    With regard to the challenges related to interagency 
coordination, we have identified several issues that have 
impeded the effectiveness of two key mechanisms designed to 
facilitate this kind of coordination, the Senior Policy 
Committee and JPDO.
    The senior policy Subcommittee is the highest level 
coordinating body and includes all of the partner agencies. Our 
research has shown that the Senior Policy Committee has met 
infrequently. According to senior JPDO officials, they are 
working with Senior Policy Committee Members to improve its 
operations. JPDO is tasked with managing the partner agency's 
day-to-day coordination and collaboration. It has several 
mechanisms to support its efforts such as advisory boards, 
working groups, and research transition teams. However, our 
work has identified some issues which have limited JDPO's 
effectiveness.
    For example, JPDO's leadership and organizational position 
has undergone frequent changes. JPDO now has its fourth 
Director in 7 years and its placement within the NextGen 
structure has changed several times. These changes have created 
uncertainty about JPDO's role and authority among stakeholders.
    Some other issues have affected FAA's coordination with the 
partner agencies, including the limited funding and staffing 
that some partner agencies dedicate to NextGen activities, 
differences in agency mission priorities, particularly those of 
FAA, DHS and DOD as well as a relative lack of specificity in 
key NextGen planning documents as to how partner agencies will 
be involved.
    Provisions in both the House and Senate FAA reauthorization 
bills could help address some of these challenges.
    Turning to FAA's efforts to integrate near term and mid-
term implementation plans with the long-term NextGen vision, 
currently FAA is modeling the potential impact on the NextGen 
vision of a variety of scenarios which could be implemented in 
the mid term and the long term. The relative cost benefits and 
risks that are identified through these scenario modelings will 
help to shape policy decisions about how programs, technologies 
and capabilities can best be implemented in the mid term and 
become stepping stones for the long term NextGen vision. These 
policy decisions include developing a strategy for equipping 
the Nation's aircraft fleet, expediting standards development, 
certification, and environmental reviews.
    And finally, realigning air traffic control facilities and 
planning for new runways to help address problems with system 
delays that NextGen technologies alone are not likely to fully 
resolve. These efforts are very much works in progress and FAA 
should continue to seek and include the input and buy-in of 
stakeholders.
    Thank you, Mr. Chairman, and Members of the Subcommittee.
    Mr. Costello. Thank you, Dr. Dillingham.
    Mr. Costello. The Chair recognizes the inspector general, 
Mr. Scovel.
    Mr. Scovel. Thank you, Chairman Costello, Ranking Member 
Petri and Members of the Subcommittee. I appreciate the 
opportunity to testify today on FAA's progress in implementing 
the Next Generation Air Transportation System, NextGen. FAA is 
developing NextGen to create a new air transportation system 
that will handle three times more traffic than today. NextGen 
involves a significant overhaul of the current national air 
space system, to shift from a ground-based to a satellite-based 
operation. Accomplishing this will require multibillion dollar 
investments from both government and industry.
    Since the effort began in 2005, we have testified before 
this Subcommittee on the operational and management challenges 
that must be addressed to successfully implement NextGen in the 
near and midterm. Today I will discuss three areas that will 
have a significant impact on advancing NextGen's long-term 
goals. One, risks with ongoing FAA modernization projects that 
form the platforms for NextGen; two, fundamental research and 
development issues that will impact performance; and three, 
actions needed to maximize the multi-agency approach.
    FAA is making progress in its efforts to implement NextGen 
but continues to face challenges in implementing ongoing 
modernization project that provide platforms for new NextGen 
capabilities. Key multibillion-dollar programs have experienced 
problems, and FAA has yet to fully determine their NextGen-
specific requirements.
    For example, FAA's $2.1 billion en route automation 
modernization, or ERAM program, for managing high-altitude 
traffic is experiencing software-related problems at its key 
initial operating site in Salt Lake City. These include 
problems in handing off traffic between controllers and 
matching critical flight information to the right aircraft. FAA 
is spending about $14 million a month to resolve these problems 
and deploy ERAM at other sites. However, FAA officials 
acknowledge that it is unlikely that all 20 systems will be 
operational nationwide by December 2010 as originally planned. 
FAA must take steps to ensure that problems with ERAM are 
resolved and that they don't impact NextGen efforts now and in 
the future.
    Likewise, recent problems with FAA's telecommunications 
infrastructure, FTI, raise questions about whether the system 
can be relied on for NextGen initiatives and whether FAA is 
adequately overseeing the FTI contractor. An FTI failure last 
November delayed over 800 flights nationwide, and it took FAA 
and the contractor over 5 hours to diagnose, correct, and 
restore service. In response to the outage, FAA established 
review teams to assess the overall system design and FAA's 
oversight. However, it remains unclear if the planned FTI 
network as designed or planned can support future NextGen 
initiatives. Therefore, it will be important for FAA to follow 
through on its plans to examine the broader implications of the 
November outage with respect to NextGen and the agency's 
management of FTI.
    A critical step to avoid risks with NextGen's cost schedule 
and capabilities is leveraging resources between FAA and 
partner agencies. FAA and the JPDO have made important progress 
in coordinating diverse research and multi-agency efforts. For 
example, NASA is playing a major role in developing software 
for NextGen capabilities. Overall, we found that NASA's work is 
fairly well aligned with JPDO plans. However, FAA needs to 
resolve issues with the Departments of Commerce, Defense, and 
Homeland Security regarding integrating weather information, 
determining joint surveillance needs, and determining how to 
incorporate unmanned aircraft systems into the mix.
    We have identified a number of actions that can strengthen 
the multi-agency approach, better leverage resources, and 
prevent duplicative efforts. These include clarifying the roles 
and responsibilities of the JPDO, establishing research 
priorities and developing an integrated NextGen budget document 
that aligns with these priorities, completing an assessment of 
partner agency research, making use of already developed 
technology, and securing the skill sets necessary to execute 
NextGen and oversee its contracts.
    In closing, Mr. Chairman, let me reiterate that FAA is 
making progress in addressing NextGen's challenges. However, a 
number of critical actions are still needed for successful 
implementation of this multibillion-dollar effort, and these 
issues must be effectively addressed in the near term in order 
for NextGen to deliver the long-term benefits needed to meet 
the expected demand for air travel.
    This concludes my statement, Mr. Chairman. I would be happy 
to address any questions you or other Members of the 
Subcommittee may have.
    Mr. Costello. Inspector General Scovel, thank you for your 
testimony, and the Chair now recognizes Dr. Shin.
    Mr. Shin. Thank you, Chairman Costello and Ranking Member 
Petri and Members of the Subcommittee. I appreciate the 
opportunity today to discuss how NASA works with the JPDO and 
how NASA's research efforts support NextGen.
    Advancements to aircraft and aircraft operations produced 
dollars and jobs for the U.S. economy, improve the environment, 
and supports energy and independence. Aviation is also a major 
contributor to U.S. exports. However, the increase in air 
traffic congestion and the noise and emissions generated by 
aircraft is a significant issue facing our Nation and the 
world. Current air traffic management processes and procedures 
do not provide enough flexibility for innovative solutions to 
address these growing demands. In order to meet the need for 
increased capacity and efficiency, while improving safety, new 
technologies and processes must be implemented. Addressing this 
problem will require research and development in both efficient 
air traffic operations and in new vehicle concepts.
    The intricate cross-cutting nature of national air space 
systems requires cooperation and coordination among Federal 
agencies as well as the aerospace industry in order to achieve 
both the near-term improvements and the NextGen vision.
    From the earlier days of JPDO, NASA has made significant 
contributions to the development of NextGen vision and key 
planning documents. We have aligned our research programs to 
address research needs identified by the JPDO's integrated work 
plan, and continue to make vital science and technology 
investments with the goals of realizing near-term improvements 
and enabling the long-term NextGen vision. The need for 
increased levers of cooperation is ever present if the U.S. is 
to leverage each Federal agency's areas of expertise and ensure 
close coordination of research programs and investment 
decisions.
    Among NASA's four aeronautic research programs, the air 
space systems program most directly addresses one of NextGen's 
goals to advance air traffic management. NASA's research in 
this area is multifaceted from near-term improvements to 
innovative concepts and technologies covering gate to gate 
operations on the airport surface, on runways, in defense 
terminal areas, and in the many unmarked sectors of the 
national air space system.
    However, achieving full benefits of NextGen will require 
contributions from all four research programs to ensure 
revolutionary new air traffic capabilities are introduced, 
safety of the system is improved, and environmental impacts due 
to aviation is mitigated.
    The NASA aeronautics research program is not limited to 
research activities at low technology resident levels. With the 
start of the integrated systems research program in fiscal year 
2010, and through a new structure of the air space systems 
program, NASA is committed to develop advanced technologies and 
applications that target NextGen needs and support maturity of 
those applications for transition to implementing 
organizations.
    NASA has also been actively making close and collaborative 
engagements with the FAA. For example, NASA and the FAA created 
research transition teams in order to accelerate progress for 
NextGen advancements and effectively transition advanced 
capabilities to the FAA for certification and implementation. 
The explicit intent of these cross-agency collaborations is to 
help bridge the maturity gap between advanced concept 
development and the validation of such concepts in relevant 
operational environments enabling the FAA to make informed 
investment and deployment decisions. Effective cross-agency 
collaboration has resulted in several recent demonstrations of 
advanced technology benefits.
    Let me provide one example. NASA has been developing 
concepts, technologies and procedures to support continuous 
descent arrival for improved efficiency and reduced 
environmental impact.
    A complementary project, the inroads system adviser, 
combines scheduling of high density flows in terminal area air 
space with a concept known as tailored arrival and airborne 
precise precision spacing. Tailored arrivals allow aircraft to 
fly continuous rising/descents at low-engine power from cruise 
altitude to the runway, thereby minimizing fuel consumption, 
environmental emissions and noise pollution. NASA and the FAA 
jointly conducted a successful field evaluation in the fall of 
last year with the participation of airline operators.
    NASA is committed to perform collaborative efforts with the 
JDPO member agencies and industry partners necessary to improve 
the level of safety, security, efficiency, quality, and 
affordability of the NextGen. NASA believes interagency NextGen 
activities continue to be a vital element for supporting U.S. 
economic growth and environmental improvement.
    Chairman Costello, thank you again for this opportunity to 
testify. I will be happy to respond to any questions you may 
have.
    Mr. Boswell. [presiding.] Thank you, Dr. Shin, and we now 
would like to call on Mr. Pennington.
    Mr. Pennington. Mr. Chairman, thank you very much for your 
invitation to testify today. Thank you, Ranking Member Petri 
and the rest of the Subcommittee Members. We look forward to 
this testimony.
    As you know, the national air transportation system is a 
critical asset to our national security. The Department of 
Defense places a high priority on being a valuable contributor 
and responsive partner in operating that system today. And on 
planning for it its transformation to meet the challenges of 
tomorrow, the DOD has a strong partnership with the JPDO at 
both the executive and the action officer levels. This 
partnership extends across the many domains of NextGen, and is 
aggressively working towards a future air transportation system 
that integrates to the maximum extent possible while protecting 
the safety of the public, manned and unmanned aircraft, point 
to point and special-activity users, and the management of both 
cooperative system participants and potential hostile actors 
that threaten our Nation.
    This interagency team is actively engaged on initiatives 
such as sensing a void, adaptive air space, and integrated 
surveillance in support of these goals.
    Mr. Chairman, you wanted to know if the agencies 
participating in NextGen are properly resourced. Let me 
preference our answer for DOD to your question by saying that 
we are unique in that we play several different roles related 
to our national air space. Not only are we the largest single 
user of our national air space system with over 14,000 
aircraft, manned and unmanned in our fleet, we also are an air 
space manager, and air navigation and airport service provider 
to military and civilian users in the U.S. and abroad, and a 
regulator of our aircraft aviators and service providers.
    So with the diverse missions that we have related to the 
national air space system, I can tell you that you won't find 
in the DOD portfolio any one specific budget item labeled 
NextGen. But what you will find are several capability areas 
that support the NextGen transformation.
    In the fiscal year 2011 President's budget, we requested 
approximately $200 million to fund these NextGen capability 
areas over the future year's defense program, and we are 
building on that funding request in our input to the fiscal 
year 2012 President's budget for the outyears.
    As a user, the DOD shares the civil aviation community's 
challenge with the setting aside of resources to equip our 
aircraft with new technologies. With over 200 types of aircraft 
in the DOD inventory and a 6-year budget planning cycle, this 
is never a small task. We are currently investigating ways to 
synchronize ADS-B avionics upgrades with aircraft equipment 
upgrades that are already planned. But even with careful 
planning, proposed ADS-B upgrades represent a significant new 
investment for the Department of Defense in the near, mid, and 
long term.
    We greatly appreciate the efforts that the FAA has made to 
coordinate with air space users, including DOD and other 
Federal agencies, in developing proposed ADS-B requirements, 
and we share the commercial aviation community's view that 
aircraft equipage requirements should be closely aligned with 
procedural changes that will yield the maximal operational 
benefits and cost savings to the most users.
    I would like to add one point to Dr. Toner's comments by 
addressing the importance of GPS to the entire NextGen 
transformation. To date, the Department has invested over $15 
billion in GPS and the precise position, navigation and timing 
information that it provides is a critical component of meeting 
the performance-based construct of the NextGen transformation. 
Maintaining that capability is essential to the effective 
functioning of NextGen and its international counterparts, as 
well as the ability of our civil and military aircraft to 
operate around the globe. The interagency partnerships we have 
on the NextGen team are essential. Together we can meet our 
challenges head on and build an air transportation system that 
is secure, adaptive, and responsive to the users of today and 
tomorrow.
    Thank you again, Mr. Chairman, Ranking Member, and also the 
rest of the Subcommittee Members for the opportunity to provide 
comments to the Committee. This concludes my prepared remarks, 
and I am happy to address any questions you may have.
    Mr. Boswell. Thank you very much.
    Mr. Boswell. Ms. Bolsinger.
    Ms. Bolsinger. Mr. Chairman, Ranking Member Petri and 
Members of the Committee, I am currently president and CEO of 
GE Aviation Systems. In 2005 and for 3 years, I was privileged 
to lead GE's ecomagination initiative, an initiative which was 
to grow our business while solving some of the world's most 
difficult and challenging environmental problems. I mention 
this because elements of these principles are evident in the 
FAA's NextGen program; that is, to balance economic growth with 
environmental responsibility.
    We all recognize that the transformation of our air 
transportation system has the potential to reduce carbon 
emissions that threaten our planet, and it is clear that fuel 
efficiencies brought about through NextGen can lessen our 
dependence on foreign oil and help control rising energy costs. 
It also will strengthen the U.S. aviation industry while 
preserving existing jobs and creating new ones. However, today 
as we arrive at the brink of NextGen implementation, Congress 
must recognize that all of the decades of planning and work 
that have brought us to this point will be for naught if we 
cannot solve the problem that I am about to describe.
    Forty years ago, Congress passed NEPA, the National 
Environmental Policy Act, a landmark piece of legislation that 
makes us stewards of the environment. It is ironic, though, 40 
years after the passage of NEPA that FAA's well-intentioned 
efforts to apply this law have instead become a major obstacle 
to achieving NextGen environmental benefits. It is to address 
this unfortunate and unforeseen circumstance that we seek your 
leadership and your help.
    Within our grasp are new technologies that can 
significantly reduce CO2 emissions, reduce fuel consumption, 
and reduce the impact of aircraft noise on our communities. One 
of these technologies is required navigation performance or 
RNP. RNP makes it possible to harness GPS and the advanced 
flight management systems on today's aircraft to create 
multiple environmental benefits through the design of extremely 
precise, predictable aircraft paths.
    The benefits of RNP are well understood, and as I speak, 
are reducing fuel burn and CO2 emissions and helping control 
community noise in Australia, China, South America and Canada. 
Studies show that in the U.S. alone at the 10 busiest airports, 
RNP could cut CO2 emissions by 2 million metric tons per year.
    From real experience, we know that we can design RNP 
procedures for an airport in about 40 days. And in Brisbane, 
Australia, a medium-density airport about the size of San Diego 
or Dallas Love Field, RNP procedures were designed, put through 
environmental review and placed into service in about 4 months. 
But in the U.S., bureaucracy and red tape stand in the way of 
achieving environmental benefit. Perversely, it is the 
bureaucracy and red tape surrounding the administration of NEPA 
that is causing the problem. We now face a situation where 
environmental process trumps environmental progress placing the 
entire NextGen program at risk.
    The FAA, like any government agency, must comply with NEPA 
requirements. And currently, environmentally beneficial 
navigational procedures are subjected to the same expensive and 
time-consuming review process as procedures that adversely 
affect the environment. That review process can last many years 
and cost hundreds of thousands of dollars. So multiply this by 
1,200 or so new procedures that will be required to modernize 
our air space at our 100 largest airports and you can begin to 
see the magnitude of this problem.
    The problem I am describing today does not just affect GE. 
FAA's own efforts to design and deploy new, environmentally 
beneficial navigational procedures also are impinged. So what 
is the answer?
    We should apply a new, expedited environmental approval 
process when a new navigation procedure meets the following 
simple three-part test: One, if it reduces an aircraft's CO2 
emissions; two, if it reduces fuel burn; and three, it results 
in a reduction or at least a no-net increase in the noise-
affected area on the ground.
    Congress has the opportunity to take action now to require 
FAA to develop its expedited environmental approval process as 
it conferences the FAA reauthorization bill. Section 314 of the 
Senate bill calls for expedited environmental review of RNP 
procedures. We support the concept but believe that further 
language is required. We look forward to working with you, 
others in Congress and the FAA, the Council on Environmental 
Quality and other interested stakeholders to accelerate the 
delivery of environmental benefits in the national air space 
through NextGen.
    Thank you. I am happy to take your questions.
    Mr. Costello. [presiding.] Thank you.
    Mr. Costello. Let me ask General Scovel, you state in both 
your written and verbal testimony today that under the 
technical problems with ERAM, both cost and schedule risk for 
NextGen. Can you talk about those technical problems and are 
they problems that exist because of technology or is it 
personnel problems? Explain to us what the problem is.
    Mr. Scovel. Thank you, Mr. Chairman. ERAM has been 
experiencing a significant number of software-related problems. 
So to answer one of your questions, I would say that they 
appear to be technical problems rather than people problems at 
this point.
    As the Committee will remember, ERAM has been installed at 
Salt Lake City, its initial operating site. It is also being 
installed at a number of other en route traffic control centers 
across the Nation. However, at Salt Lake City and also in 
Seattle, the software-related problems have popped up, and they 
became serious last year. FAA realized this and has been making 
efforts to try to correct those.
    The technical problems, as I mentioned in my statement, 
involve radar processing failures, difficulties with passing 
traffic from controller to controller, and erroneous 
identification information being assigned to various aircraft.
    The FAA is spending about $14 million a month right now to 
further deploy ERAM and also to try to fix the problems. 
Unfortunately, on the problem-fixing side, it has been unable 
to properly diagnose the problem and to generate a solution 
that doesn't in turn cause even more problems. It has been a 
serious enough problem that FAA has seen the need to delay 
certain key decisions that had been slated for resolution in 
December 2009. These were the operational readiness decision 
and the in-service decision. Those have slipped by another 6 
months. So June 2010 we hope, and FAA hopes, those will be 
ready for resolution.
    Across the NAS among all 20 en route control centers, ERAM 
was to have been in service and up and running by the end of 
this year. It is now apparent to us and to FAA that those dates 
will probably slip, too.
    Looking long term across NextGen, the implementation is 
this, Mr. Chairman. ERAM is essential for ADS-B and data 
communications. As final dates, installation dates, and 
operational decision dates slip further down the calendar, the 
ability for controllers at en route centers to make the most 
effective use of data communications and ADS-B will also move 
down the calendar, and that has a ripple effect across the NAS 
and NextGen implementation projects.
    Mr. Costello. What are the top three or four things that 
you believe need to be done to move NextGen forward?
    Mr. Scovel. Mr. Chairman, we would ask FAA, the Secretary, 
who has been assigned by the executive order as having top 
responsibility for NextGen, FAA and the JPDO, to consider these 
three items. First, completing an integrated budget document. 
Once requirements have been developed, and I know from 
discussions with DOD that that is a prime concern of theirs, it 
has been a continuing effort on the part of FAA who realizes 
the significance of that as well, so it is an iterative 
process. It is a continuous work in progress to try to develop 
this integrated budget document, but it does have the benefit 
of pulling together requirements, projects, helping FAA and 
partner agencies identify research gaps, identify funding 
streams, and trying to close those research gaps.
    We would also assign or ask the FAA to assign as a top 
priority to JPDO this, a focus on technology transfer. Both 
NASA and DOD have recognized the importance of this. It has 
been done on previous occasions, especially between NASA and 
DOD on one side and the FAA on the other. The research 
transition teams that Dr. Shin has identified would be 
essential to this. Entrance and exit criteria and well defined 
hand off points will be key for FAA to receive the benefits of 
the transfer of technology from the other two agencies.
    Mr. Costello. Dr. Toner, would you agree with General 
Scovel's assessment that we will see at least a 6-month delay 
because of the technical problems that have developed with 
ERAM?
    Ms. Toner. So I am aware of the problems that have been 
developed with ERAM in the Salt Lake City installation. I would 
need to confirm that it is indeed a 6 month delay; but yes, I 
understand that it is delayed. From my perspective that the 
JDPO, working with NextGen, and ERAM not being a NextGen 
program--however, it is an underpinning to NextGen-- we are 
concerned with the linkages from the near and mid-term 
implementation onto the long-term path, and that is where I 
will be most closely monitoring.
    Mr. Costello. You state in your testimony that JPDO needs 
to have a more flexible approach to long-term NextGen planning. 
Tell me what you mean by that.
    Ms. Toner. So I think when we look at the vision that was 
established beginning 6 years ago and we laid out a very bold 
vision, and from a researcher's perspective, at that time we 
laid out a vision that we needed to carefully test and identify 
which elements of that vision we needed to meet up with the 
national needs.
    I think we have got a clear view of that long term and 
where we are going, but I think we have to take evolutionary 
steps. So in the next 5 years, we are much more certain on what 
we can do. And the 5 years after that, we are a little less 
certain. I think we can begin to do a better job. I think it 
all ties back to the technology transfer piece. How are we 
making sure that when the FAA has a 2018 implementation path, 
that we have something to move over in 2019? I think we need to 
carefully build out the vision in that fashion.
    Mr. Costello. You heard Dr. Dillingham testify about the 
participation with the partner agencies, and it seems to run 
from a significant amount of participation to not very much 
participation. I know you have only been on the job about 60 
days, but what is your assessment?
    Ms. Toner. So each of our partners is unique and brings 
unique aspects to the table. In terms of NASA research, FAA is 
really the customer who is going to be receiving that research. 
DOD has an abundance of knowledge that we really need to 
understand and see where it benefits circulation, so it is a 
different type of relationship.
    We have also had a very good relationship with NOAA and the 
Department of Commerce on the weather integration. I think 
there are some issues in the integration in the near term, but 
really when we look at the NextGen piece, we are making 
progress toward an integrated picture of the weather. And I 
think as everyone here knows, and weather accounts for 70 
percent of the delays in our system.
    DHS participates in other ways. They participate as working 
group members and leads. They participate in the JPDO board 
which advises me, and they participate in one key strategic 
area for us which is integrated surveillance. DOD and FAA 
participate there as well.
    Mr. Costello. How about the participation by the air 
traffic controllers and technicians, have they been 
participating in meetings since you have been on the job?
    Ms. Toner. So I actually just last week met a gentleman 
named Mel Davis, who is the new NATCA rep for NextGen, and he 
and I are going to be meeting. And he actually is going to be 
sitting in on some of our meetings. So we are starting down 
that path, yes.
    Mr. Costello. I have expressed and I think other Members of 
the Subcommittee have expressed the importance of involving all 
of the stakeholders here. The people who design the system 
should be the people who are going to run the system, that they 
should not be left out. That has happened in the past, and we 
hope you recognize that and make certain that the technicians, 
controllers and others are involved in the planning process.
    With that, I will ask my final question and then I will 
turn it over to the Ranking Member, Mr. Petri. Who are you 
reporting to in the Secretary's office?
    Ms. Toner. In the Secretary's office, I report to Secretary 
LaHood. I directly report to the deputy administrator of the 
FAA and it is a matrix reporting to the Secretary.
    Mr. Costello. And the deputy administrator's appointment is 
being held up in the other body right now?
    Ms. Toner. That is correct, so I am reporting to the Acting 
Deputy Administrator.
    Mr. Costello. Thank you.
    The Chair now recognizes the Ranking Member, Mr. Petri.
    Mr. Petri. Thank you, Mr. Chairman. I have a number of 
questions. I will try to get as many in in the time allocated 
as possible.
    The first question is for Dr. Dillingham. There is concern 
that the FAA will not be able to increase efficiencies, reduce 
costs and at the same time transition to NextGen while it 
continues to maintain and operate World War II era facilities, 
many of which may be redundant. Are you aware of any plans of 
the FAA to right-size FAA facilities as part of the NextGen 
process? Or is it going to be overlaid over the existing 
structure that we have in place even though it may not be 
necessary once the new equipment is out there?
    Mr. Dillingham. Thank you for the question, Mr. Petri. 
Based on our work, we understand that FAA would like to do 
realigning and right size the facilities. I think there are 
provisions within the reauthorization that speak to that.
    I would like to add that it is very important in terms of 
achieving the cost effectiveness that is associated with 
NextGen if you, in fact, are going to take advantage of the 
technologies that would allow you to realign or right size. It 
is a very, very difficult nut to crack, though. It takes sort 
of the cooperation of a lot of different parties involved in 
this. But we are aware that they have in fact begun to think 
about and want to move toward right sizing ATC facilities 
across the NAS.
    Mr. Petri. The sooner that process starts, the less 
disruptive it will be for people and their lives because you 
can just go through attrition and give reassignment 
opportunities and all of the rest of it. It will save money if 
it is done sooner, and it would also save inconvenience.
    Mr. Dillingham. Yes, sir.
    Mr. Petri. I have a question for Ms. Bolsinger. I wonder if 
you can expand on your discussion of RNP. You indicated that 
this process has tremendous environmental efficiencies and 
savings and that some of these new procedures and efficient 
flight paths and all the rest, and GE makes the technology, 
among others, is already deployed. Americans are flying on 
planes that land in Brisbane as we speak under the new 
procedures. FAA's job is to protect American flyers.
    It hasn't approved these procedures here in the United 
States, shouldn't it be banning them from flying in Brisbane? 
Or speeding up the procedures so we can realize the 
environmental efficiencies? Maybe we should be putting in a 
procedure to find best practices all around the world and 
implementing them rather than not invent it here as our 
approach. I don't know how you operate at General Electric but 
you are global corporation. I suspect you probably take the 
latter rather than the former approach. Can you comment on any 
of that?
    Ms. Bolsinger. Yes. You couldn't be more right. We do steal 
best practices everywhere around the world. Very frankly, it is 
disheartening to me as an American to be implementing these 
procedures not in the United States first.
    However, we are a global company, and we do have to respond 
to these customers around the world. Probably the most advanced 
is Australia where in Brisbane they have been able to complete 
all of the procedures and their environmental impact studies in 
about 4 months time. It is not a large airport, it is a medium-
sized airport. Their plan is to role that out across the entire 
country of Australia through their Air Australia services, 
their national air space service provider, within 5 years. So 
it is certainly very doable.
    I don't think there is any sentiment anywhere in the United 
States to preclude these procedures from being done. I think 
again it is the perverse nature of the NEPA regulations which 
forces us to go through environmental impact studies which 
actually can have deleterious effects and certainly slow down 
the process by years.
    Mr. Petri. I wonder if, Dr. Toner, you would care to 
respond on any of that? I know you are under some 
administrative handicaps right now and are still relatively new 
on the job, but will you be taking a look at trying to speed up 
the procedure so as to realize the environmental savings? And 
if something is, in fact, already in place in another country 
and Americans are allowed to fly on it, and it is the same kind 
of things that we ask the Europeans when it comes to 
genetically engineered foods, do they get sick at a restaurant 
in New York?
    They are banning the food over in Europe supposedly, and we 
kind of wonder whether there is a hypocrisy level there. Here 
there is just a waste issue because we are missing the 
opportunity to save on energy and all of the rest.
    Ms. Toner. With NextGen, when we look at efficiency and 
capacity, we know they are directly related. We want to be 
flying the most efficient routes. What I can tell you is that 
we want aviation to first be a good steward of the environment. 
We are fully aware of how tough it is getting some of these 
environmental impacts done.
    That said, we actually are implementing some on RNP routes 
in the U.S. under NextGen, those where the benefit is very 
clear. Of course noise is the issue. And the FAA really 
supports streamlining the processes as long as we still are 
protecting the environment. So I think it is an issue that is 
right up front.
    Mr. Costello. The Chair thanks the Ranking Member and now 
recognizes Mr. Perriello.
    Mr. Perriello. I have no questions at this time.
    Mr. Costello. The Chair now recognizes the Chairman of the 
Full Committee, Chairman Oberstar.
    Mr. Oberstar. Thank you all for your contributions, for 
your thoughtful and well-presented papers.
    Inspector General Scovel, we have been around this now for 
many years. The en route system from the 9020s to display 
system replacement after going through several iterations of 
AAS and so on; STARS, standard terminal automation replacement 
system for the TRACONs; terminal Doppler weather radar and then 
terminal Doppler color radar for towers and also for TRACONs 
and DSCS, one of the most successful of all of these high-
dollar technical systems installed which was done over one 
weekend without shutting down the system for 20 seconds, but 
all of these had delays, cost overruns, costs in the sense not 
of overruns but of escalating costs because of program 
mismanagement. And now you are saying well, we have a slippage 
here by 2 months and then we have ERAM and that will affect the 
other downstream systems. What has FAA learned from the past?
    I remember some years ago when the new administrator of FAA 
brought in the Navy procurement office and had them review all 
of these multi-billion-dollar systems, and they came back and 
said at our Committee hearing in this room, they said they 
don't now how to manage multi-billion-dollar systems. They have 
never done anything this big, and this is what we propose to 
do. And it is not just a problem of the FAA, it is also the 
industry side because in those days, you couldn't tell where 
IBM left of and the FAA began. And they were hand in hand, 
partners in failure.
    And now we have this movement to NextGen. So have they 
learned something about managing multi-billion-dollar 
contracts, engaging industry and the air traffic controllers in 
the design of the systems, engaging the airlines and also 
participating in the design of the systems, not over promising 
and not over designing, not over rating things?
    Mr. Oberstar. And now we have a joint program, development 
office. You have got a director and an institute, an institute 
management counsel, and we don't seem to be getting any further 
ahead. Now it is true that in two Congresses, three Congresses, 
the 108th 109th and the 110th, we didn't pass the 
appropriations necessary to provide the dependable flow of 
funds out into the future, but that is not an impediment to the 
planning and the thinking and the process that I think has been 
a failure here. I am just stressed with it. I want you to 
respond and I want to see what the others think.
    Mr. Scovel. Chairman Oberstar, let me take one of your 
minor points and then I would like to address your major theme, 
if I could. In one of his questions, Chairman Costello asked 
Dr. Toner about the involvement of controllers in the design of 
a number of the systems that will be necessary for NextGen, and 
Dr. Toner responded that controllers are now involved. I think 
Chairman Costello's point was specifically with regard to the 
STARS program, where controllers had not been involved, and 
human factors, problems, being what they were, they cropped up 
when the systems began to be installed. Controllers were unable 
to use them effectively, which contributed to the delay and the 
escalating cost in the STARS program. It should be a lesson for 
all of us, and I know that lesson is still repeated today over 
at FAA. I think your larger point, sir, is this, and this is 
one that we have debated in my office in response to our 
questions back and forth about what makes some programs 
effective and efficient within FAA and what makes others not 
so. We have come down to this, stable requirements, whether 
those, the input in determining those requirements come from 
controllers, from industry, from engineers and specialists 
within NASA and FAA. Once those requirements are set, the 
program can be designed and engineered and bought, the chances 
of staying on time and on budget increase dramatically.
    Mr. Oberstar. I have to interrupt you at that point because 
that was a problem in 1990 with FAA and IBM in the evolution of 
what became DSR, display system replacement. And at a hearing 
up at the IBM facility up in Germantown where--it was actually 
Mr. Mica's first year on the Committee and he was a little 
astonished at my anger with the way things were proceeding. And 
I said to Mr. Ebcur, I am going to nail your shoes to the 
floor. He said why? I said so you can't move. We need to freeze 
those requirements. Every time we have a meeting on this or a 
hearing, you are changing the requirements. Stay put. Fix, 
freeze the program, and then go forward with it. And it was 
thanks to Mr. Costello and his persistence and also the 
participation of Mr. Petri, the persistence with the FAA that 
engaged the controllers.
    We learned that with STARS. They had the track ball 
embedded in the console in the upper right-hand corner. What 
about the left-hand controllers? You have to turn your body 
around and spin around? No. Why couldn't they move? They said, 
We asked for a movable track ball. Oh, no, we can't do that. 
Well, they did after a couple million dollars of wasted effort. 
So let's engage them. Go on. You hit on a sore point of mine. 
Go ahead.
    Mr. Scovel. I was going to simply make a point, Mr. 
Chairman, that among the programs that we have discussed in our 
testimony today of course is ERAM. For years now, ERAM has 
enjoyed the distinction at FAA of having fairly stable 
requirements, and it appeared to the specialists in my office 
who have been working with FAA and ERAM for all this time that 
ERAM was well managed, it enjoyed stable requirements and until 
very recently was on time and on budget. Now anytime we are 
dealing with software, any of us in the real world know today 
that things happen, and that is what has happened with ERAM and 
FAA now is trying to make corrections. But in comparison to 
other programs--and of course STARS would be one, the 
distinction between ERAM and others like STARS would be 
manifest.
    Mr. Oberstar. Well, it seems to me that NextGen is 
envisioning a much more complicated structure than DSR, than 
TDWR, than STARS, of all of those together with VSCS. I was 
going to ask also for comparison of the NVS with the VSCS and 
what improvement there is. But you can submit that in writing. 
I want to ask Dr. Dillingham whether FAA has created here 
another headache, an overload of management within management, 
with the JPDO, the director and the NextGen Institute and the 
Institute Management Council, what is all that achieving?
    Mr. Dillingham. To be determined, Mr. Oberstar. Clearly 
there is a need that all of these plans and councils be 
synchronized so that all the things that come together for a 
complicated undertaking like NextGen you clearly have to have 
lots of streams going into it. At this point since things are 
so new in the sense of Dr. Toner's appointment and the movement 
that this Committee was instrumental in getting a more direct 
reporting to the Deputy Administrator and the Secretary, it is 
still to be determined if this is going to work and if this is 
going to just become sort of become sort of moving the Chairs 
around at this point in time. So we are optimistic that this is 
going to make a change, but we are watching it as well.
    Mr. Oberstar. Good. That is not a very inspiring response, 
I must say. It is an honest response, and I appreciate it. And 
Dr. Toner, I hope you can wrap arms around it and do some mud 
wrestling with this organization. But it damn well better start 
doing something. We are going to, by the way--I would say for 
all Members and others of interest--that we are progressing 
toward an authorization bill. The Senate has acted. Senator 
Rockefeller and I have had conversations. Our staffs are 
meeting and ironing out the differences between our two bills 
and I am confident that within a couple of weeks, we are going 
to have first aviation authorization bill in 4 years.
    Mr. Costello. The Chair thanks the distinguished Chairman 
of the Full Committee. And let me say that that is one of the 
reasons why in the reauthorization bill that passed this 
Committee and passed the House not only in 2007 but again in 
2009, we had the head of the JPDO reporting directly to the 
administrator as opposed to the system under the previous 
administration and the current system announced by this 
administration.
    The chair now recognizes the gentlelady from Ohio, Mrs. 
Schmidt.
    Mrs. Schmidt. Thank you and I will be brief. My questions 
are for Ms. Bolsinger. Ms. Bolsinger, in your written 
testimony--I don't believe you said it in your oral--but in 
your written testimony, you mentioned that Southwest Airlines 
and the investment they have made in RNP and my question to you 
is: How are they able to implement RNP with these environmental 
hurdles that you have testified about today?
    Ms. Bolsinger. Thank you for that question. Unfortunately, 
Southwest is not able--despite the fact that they have spent 
tens of millions of dollars are, I would say, a maverick 
airline, one of the few that makes money, one that has made our 
industry very viable and a strong employer of U.S. citizens. 
But unfortunately, they are not able to get their RNP 
procedures finished. So they have done the equipage. They have 
spent the money. And I think they will stand as a terrible 
example to other airlines of what not to do, not to get ready. 
So unfortunately, without the procedures being approved, all of 
the investments that they have made will be for naught.
    Mrs. Schmidt. Well, thank you for clearing that up for me, 
ma'am. And you also testified that "GE is rolling out our RNP 
in locations around the world." Do these other nations have the 
same environmental hurdles that we have?
    Ms. Bolsinger. They all have an environmental impact study 
that is done, and they all go through their own procedures. 
They aren't identical to the United States, and of course they 
don't necessarily have the same regulatory--let me say the NEPA 
sort of oversight that we have. In some ways, newer 
infrastructures are easier. So China will probably be much more 
advanced than we are because they don't have any infrastructure 
today. So that is part of our issue. But again, if we were to 
put our minds to it, we could expedite. And what we are asking 
for is an expedited process not to lift NEPA but in fact to 
have a different implementation that says if, in fact, a 
procedure meets three criteria, less noise or equal noise, less 
emissions, and less fuel burn, that it would be considered a no 
impact and be able to be on an expedited path which should be 
determined by experts.
    Mrs. Schmidt. Thank you. I have no further questions.
    Mr. Costello. The Chair thanks the gentlelady and now 
recognizes the gentleman from Ohio, Mr. Boccieri.
    Mr. Boccieri. Thank you, Mr. Chairman. To Mr. Scovel, the 
Joint Planning Development Office states that one of their 
goals is to identify existing research and development in 
technologies within each partner agency that benefits the 
NextGen effort. However, the GAO has said that questions still 
remain over which entities are going to fund and conduct some 
of the necessary R&D and demonstration projects to achieve 
certain NextGen capabilities. So I know that you have testified 
that disagreements among partner agencies have delayed the 
decisions of implementing certain technologies. Could you 
summarize those disagreements and delays?
    Mr. Scovel. I could mention one, sir. It is addressed in 
our statement and it has to do with the weather capabilities 
that FAA seeks to obtain from the Department of Commerce and 
NOAA specifically. There have been technical disagreements 
about the 4D Weather Cube that the Department of Commerce and 
NOAA are in the process of establishing nationwide, which of 
those capabilities will be made available to FAA. Commerce is 
proceeding with its own requirements but looks to FAA to define 
its requirements and also to fund those appropriately. The 
Agency and the Department have established the executive 
weather panel in an attempt to iron out those disagreements 
that ease the funding concerns, and we look forward to having 
that happen.
    Mr. Boccieri. Do you sense, at least from NASA's 
perspective, that the shift back towards research and 
development from the previous administration's focus on deep 
space exploration is going to augment and help this?
    Mr. Scovel. Most definitely. It is a very positive 
development. Frankly, sir, my office is greatly encouraged to 
have NASA's statement that it is now moving beyond simply 
fundamental research and moving even into development and 
perhaps even a prototype development on behalf of FAA.
    Mr. Boccieri. Thank you. And I would add just for the 
record that we hope that NASA Glenn Research Center in 
northeast Ohio plays an integral role in that as well. Thank 
you, Mr. Chairman.
    Mr. Costello. The Chair thanks the gentleman. And the Chair 
would ask any other Members--votes have been called on the 
floor. We have 5 minutes to get to the floor. The Chair would 
ask if any other Member has any questions of these witnesses.
    Mr. Oberstar. I would like to express my appreciation to 
the Chair, to Mr. Petri and Mr. Ehlers, thank you for being 
here, our resident scientist on the Committee, for keeping the 
sharp spotlight of attention focused on this multibillion-
dollar program. With your continued work, we are going to keep 
them on course and get this program off on the right course and 
achieve these initial interim objectives. But if we don't, 
aviation suffers. It won't be shut down worldwide like the 
volcano did. But that ought to be a reminder to us again of 
what can happen if we don't advance the state of the art of 
technology in air navigation guidance.
    Mr. Costello. The Chair thanks Chairman Oberstar and thanks 
our witnesses for appearing before the Subcommittee today. As 
Chairman Oberstar indicated and Mr. Petri have indicated many 
times that we intend to continue aggressive oversight on this 
massive project and undertaking and to make certain that not 
only the administration, but all of the agencies and 
stakeholders are in fact engaged and working together to move 
the process forward.
    Let me, in addition to thanking the witnesses, let me thank 
some of the family members from the Colgan tragedy who are here 
today. We deeply appreciate you being here and you continuing 
to work with us to provide oversight and to hopefully move an 
FAA reauthorization bill to the President's desk in the not too 
distant future. As Chairman Oberstar indicated, we are 
negotiating at the current time, and we hope to bring that to a 
successful conclusion. But we deeply appreciate you being here 
today and we have less than 2 minutes to get to the floor to 
vote. So that concludes the hearing today. We thank our 
witnesses for being here. The Subcommittee stands adjourned.
    [Whereupon, at 3:20 p.m., the Subcommittee was adjourned.]

</pre></body></html>
